W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1718

Samuel H. Sloan

Maria Childress, et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Judge William G. Petty

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Thomas N. Jamerson

Date:

7/7/21

Digitally signed by Thomas N. Jamerson
Date: 2021.07.07 13:59:16 -04'00'

(Type or print) Name Thomas N. Jamerson
Mr.

Ms.

Mrs.

Firm

The Beale Law Firm

Address

808 Moorefield Park Drive, Suite 110

City & State

North Chesterfield

Phone

(804) 788-1500

Miss

Zip 23236
Email

tjamerson@bealelaw.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Samuel H. Sloan, Joseph Walton Milam, III, Esquire, Elaine duRoss McCafferty, Esquire, E. Scott
Moore, Assistant Attorney General, Elizabeth C. Wu, Esquire, Eppa Hunton, VI, Esquire, Darrell J.
Roberts, and Charles E. Roberts

